                      CLOSEOUT FOR M93040024




blind review that was similar to the grant proposal and wanted the
program officer to advise him about how to let the journal know
that he could not do a blind review without compromising the
confidentiality of his status as a reviewer for N S F . The program
officer, in turn, raised the possibility that the subjects might
have submitted a proposal to NSF to do work that they had already
performed.
     OIG examined the subjects' proposal and the reviewer's message
and found that they clearly and consistently distinguished between
work already performed and new work for which funding was sought.
The reviewer desc 'b s the journal submission as containing what
the proposal
data from 1980-UP     labels a llpreliminaryempirical analysisI1 of
                     Likewise, the -proposal
                                        -        cites an unpublished
paper containinq this analysis. The ~ r o ~ o s aasks
                                                  l   for NSFfunds to


                         .                                  -


theory (project summary) The reviewer's messase in no way G ~ l i e s
that these tasks have already been done. ~nstead,it un&igu~usly
indicates that the journal submission contains the preliminary work
that, according to the proposal itself, had already been done prior
to the request for N S F funding.
     There is no evidence here to suggest misconduct.    his case is
closed and no further action will be taken.




Concurrence:



Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight
+J.     'w-
James J. Zwolenik
                   d311F

Assistant Inspector General for Oversight




L. Nancy Birnbaum
Assistant Counsel to the Inspector General


cc: Assistant Inspector General for Oversight
    Inspector General.
